<html>
<title> - THE HOMELAND SECURITY DEPARTMENT'S BUDGET SUBMISSION FOR FISCAL YEAR 2017</title>
<body><pre>[Senate Hearing 114-622]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 114-622

 THE HOMELAND SECURITY DEPARTMENT'S BUDGET SUBMISSION FOR FISCAL YEAR 
                                  2017

=======================================================================

                                 HEARING

                               BEFORE THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS


                             SECOND SESSION

                               __________

                             MARCH 8, 2016

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  
      
      
                    U.S. GOVERNMENT PUBLISHING OFFICE                    
22-767 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4522352a05263036312d2029356b262a286b">[email&#160;protected]</a>       
        
        
        
       
        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
MICHAEL B. ENZI, Wyoming             HEIDI HEITKAMP, North Dakota
KELLY AYOTTE, New Hampshire          CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska

                  Christopher R. Hixon, Staff Director
             David S. Luckey, Director of Homeland Security
       William H.W. McKenna, Chief Counsel for Homeland Security
     Brooke N. Ericson, Deputy Chief Counsel for Homeland Security
          Gabriel S. Sudduth, Senior Professional Staff Member
               Shad A. Thomas, U.S. Coast Guard Detailee
              Gabrielle A. Batkin, Minority Staff Director
           John P. Kilvington, Minority Deputy Staff Director
     Stephen R. Vina, Minority Chief Counsel for Homeland Security
         Abigail A. Shenkle, Minority Professional Staff Member
    Marian P. Gibson, Minority U.S. Department of Homeland Security 
                                Detailee
                     Laura W. Kilbride, Chief Clerk
                   Benjamin C. Grazda, Hearing Clerk
                           
                           
                           C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator Carper...............................................     2
    Senator Portman..............................................    10
    Senator Tester...............................................    12
    Senator Baldwin..............................................    14
    Senator Heitkamp.............................................    16
    Senator Booker...............................................    17
    Senator Peters...............................................    20
    Senator Ayotte...............................................    21
    Senator Ernst................................................    23
    Senator McCain...............................................    35
Prepared statements:
    Senator Johnson..............................................    39
    Senator Carper...............................................    41

                                WITNESS
                         Tuesday, March 8, 2016

Hon. Jeh C. Johnson, Secretary, U.S. Department of Homeland 
  Security
    Testimony....................................................     4
    Prepared statement...........................................    43

                                APPENDIX

Charts submitted by Senator Johnson..............................    60
Response to post-hearing questions submitted by Secretary Johnson    62

 
 THE HOMELAND SECURITY DEPARTMENT'S BUDGET SUBMISSION FOR FISCAL YEAR 
                                  2017

                              ----------                              


                         TUESDAY, MARCH 8, 2016

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:04 a.m., in 
room 342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, McCain, Portman, Lankford, 
Ayotte, Ernst, Sasse, Carper, Tester, Baldwin, Heitkamp, 
Booker, and Peters.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Good morning. This hearing is called to 
order.
    Let me first thank Department of Homeland Security (DHS) 
Secretary Jeh Johnson for coming before the Committee. I know 
you have done this a few times, and I know you also did it a 
little bit earlier than you necessarily wanted to, so I truly 
appreciate that.
    I also want to just thank you for your service. I cannot 
imagine this is a real thank-filled position. It is a serious 
responsibility. I know you are a serious individual and you are 
trying to do everything you can to keep this Nation safe and 
secure, I really do appreciate your efforts working with a 
difficult agency--a difficult Department. It is never easy to 
consolidate 22 different agencies with different cultures. It 
has taken some time to do it. But, I think you have brought the 
right approach to the job here, so I truly appreciate your 
efforts.
    For our own part here, I want to thank all of the Members 
of the Committee for coming here. It is an important hearing.
    When I became Chairman, I sat down with the former 
Chairman, now my wingman, Senator Carper, and the first thing 
we did 
was--because of my business background, I thought it was very 
helpful to have a mission statement, and so, we quickly 
developed a mission statement for the Committee. It is pretty 
simple: To enhance the economic and national security of 
America. You cannot separate those two. They go hand in hand.
    And, then, based on that, on the homeland security side of 
the Committee, we established 5 priorities. I am not saying 
these are the order of the priorities. They are all top 
priorities, but border security--we have held 14 hearings on 
border security, alone. We have taken trips down to the border, 
to Central America. The border is not secure.
    Cybersecurity--as General Keith Alexander said, it is the 
greatest transfer of wealth in human history--these cyber 
attacks. And, so, this Committee, working in a very bipartisan 
fashion, passed out of Committee the Federal Cybersecurity 
Enhancement Act of 2016 and married that up with the Senate 
intel bill. It is a first step. It is not a panacea, but it is 
a first step.
    The third priority is protecting our critical 
infrastructure, including our electrical grid. I understand 
that Ted Koppel has written a book, ``Lights Out'', talking 
about the vulnerabilities involved in that. That is something 
this Committee has to do more work on.
    And, the fourth priority concerns what we can do, as a 
Committee and as a Federal Government, to counter Islamic 
terrorists and other violent extremists.
    And, then, the fifth priority--and this is really kind of 
the purpose of this hearing, from my standpoint--is to commit 
this Committee--commit myself--to do everything we can to 
assist the Secretary, as well as the Federal Bureau of 
Investigation (FBI) Director James Comey and the National 
Counterterrorism Center (NCTC) Director Nick Rasmussen, in 
succeeding in their missions of keeping this Nation safe.
    And, so, what this hearing is all about is the budget. This 
is providing the funds in what I would consider a top priority 
of government, the defense of this Nation--the defense of this 
Homeland. So, I want to really have this hearing focus on those 
threats and what we can do to keep this Nation safe and secure, 
so that America can be prosperous, because national security 
and economic security go hand in hand.
    So, I do ask consent that my written statement be entered 
in the record,\1\ but again, Secretary Johnson, thank you for 
coming here. Thank you for your service.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 39.
---------------------------------------------------------------------------
    Chairman Johnson. And, I will turn it over to Senator 
Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thank you. Thank you, Mr. Chairman.
    Mr. Secretary, great to see you, and I want to echo the 
Chairman's comments thanking you for your leadership. Some of 
your leadership team is here and we have had a chance to spend 
time with them as of late and we are grateful for their service 
and the approximately 220,000 people that you collectively lead 
at the Department of Homeland Security. Thank you for joining 
us today to discuss the President's budget proposal for fiscal 
year (FY) 2017.
    As you know, the President has requested a little over $40 
billion--$40.6 billion to be exact--in discretionary funding 
for DHS. It is roughly a one percent decrease from the budget 
enacted this last year. And while I am pleased that the many 
vital Homeland Security missions are funded in this budget 
request, I do have some concerns about several of the proposals 
and the impact that they may have on the Department and on our 
ability to do our collective jobs.
    I understand the need to do more with less as part of our 
efforts to continue to bring down our Nation's deficit and 
debt. Making additional progress is critical for the well-being 
of our Nation and our economy. But, while doing so, we also 
need to make sure that the Department has the funds that it 
needs to keep the American people safe against the constantly 
evolving and growing threats that we face as a Nation.
    I am concerned, for example, by the proposal to cut funding 
for several Department of Homeland Security grants. In fact, 
some grants would be cut by as much as 35 percent. These funds 
are vital to helping our communities better prepare for major 
disasters and terrorist attacks. In Boston, for example, we all 
recall how the Department of Homeland Security grants were 
critical in training first responders and preparing the 
community to respond, as they did, to the Boston Marathon 
bombings.
    I also have questions about the fee increases proposed in 
the budget for aviation security. I know that raising these 
fees has not always been popular with some in the Congress, but 
I have always felt that if something is worth having, it is 
worth paying for, and that is why I supported reasonable fee 
increases that will help the Department of Homeland Security 
carry out its missions. However, if Congress does not raise 
these aviation fees, there will be roughly a $900 million hole 
in the budget for the Transportation Security Administration 
(TSA)--a $900 million hole--and that is deeply concerning. I 
hope we can all come together and find a sensible solution to 
this challenge.
    Despite these areas of concern, there are a number of 
positive items included in this budget request. I will mention 
a few of them. For example, there is a sizable investment, over 
$1 billion, in cybersecurity. That is a 30-percent increase, I 
believe, over last year, for the budget. This new funding will 
help the Department to carry out several laws that this 
Committee has worked hard to pass over the past several years, 
and I thank my colleagues here for all of their work in doing 
that--really working with us over the last 3 years.
    For instance, the budget request includes needed increases 
for Einstein and for cybersecurity tools to better secure our 
Federal networks. There is also funding for additional cyber 
personnel as well as for the information sharing portal that 
Congress called for creating at DHS.
    The proposed budget also continues our recent investments 
in border security. I was particularly pleased to see increases 
in funding for valuable force multipliers, equipment such as 
aerostats, airplanes, helicopters, vehicles, boats, 
surveillance towers, drones, and fixed-wing aircrafts, that can 
help our men and women on the ground be more effective along 
our border with Mexico.
    I was also pleased to see that the budget request continues 
to make countering violent extremism (CVE) here at home a high 
priority by funding the Office of Community Partnerships. Last 
month, this Committee successfully marked up my legislation 
that would codify this office. I thank the Chairman and others 
for their support. I think we passed it out of the Committee 
unanimously. I look forward to working with you, Mr. Secretary, 
and the Director of the Office, George Selim, as well as our 
colleagues, to advance this important bill through the Senate.
    Finally, I have also been quite encouraged to see funding 
for the ongoing consolidation of the Department's headquarters 
at St. Elizabeth's. Completing this project will ultimately 
save taxpayers more than $700 million over the next 30 years by 
cutting down the number of costly leases we use to house DHS 
personnel.
    Mr. Secretary, let me close by recognizing your leadership, 
along with that of your Deputy, Ale Mayorkas, as well as the 
efforts of your senior staff--some of whom are here today--and 
of the over 200,000 rank and file DHS employees in support of 
your ``Unity of Effort Initiative.'' Along with the Members of 
our Committee's staffs, the Chairman and I are working 
diligently to move legislation that would codify a number of 
your proposed reforms, and we look forward to hearing more 
today about how we can work together to ensure the Department 
has the tools, the resources, and the authorities it needs to 
grow stronger and to work even more effectively.
    Again, thank you for joining us today. We look forward to 
your testimony and to our conversation.
    Chairman Johnson. Thank you, Senator Carper.
    It is the tradition of this Committee to swear in 
witnesses, so if you will please rise and raise your right 
hand.
    Do you swear the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Secretary Johnson. I do.
    Chairman Johnson. Please be seated.
    Secretary Jeh Johnson is the fourth Secretary of Homeland 
Security. Prior to joining DHS, Secretary Johnson served as 
General Counsel for the Department of Defense (DOD), where he 
was part of the senior management team and led more than 10,000 
military and civilian lawyers across the Department.
    Secretary Johnson's career has included extensive service 
in national security and law enforcement. He has also practiced 
as an attorney in private corporate law. Secretary Johnson.

 TESTIMONY OF THE HONORABLE JEH C. JOHNSON,\1\ SECRETARY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Secretary Johnson. Every time I hear that, I keep thinking, 
I have to rewrite that bio. People think it is more impressive 
that I ran an organization of 10,000 versus an organization of 
200,000 people.
---------------------------------------------------------------------------
    \1\ The prepared statement of Secretary Johnson appears in the 
Appendix on page 43.
---------------------------------------------------------------------------
    Mr. Chairman and Members of the Committee, you have my 
written statement.
    This year's budget submission, as I think Senator Carper 
has accurately outlined, reflects hard and difficult choices to 
fit within the budget caps. Because we had to make hard 
choices, there are some things that I wish we could have funded 
at higher levels that we do not in this budget request.
    Let me say that I appreciate very much the true partnership 
that I think we have had at DHS with the Members of this 
Committee and what I believe to be a very effective bipartisan 
working relationship with Members of this Committee. Just since 
I have been Secretary, I think, together, we have accomplished 
a lot.
    Going back to even before I was confirmed and I began 
courtesy calls with members of this Committee, I took to heart 
the message I received from you about the importance of 
management reform--reforming the way in which our Department 
does business.
    Overall, my goal as Secretary, for the remaining 319 days I 
am in office, is to leave the Department of Homeland Security 
in a better place than I found it. What that means is improving 
the efficiency and the effectiveness by which we deliver 
homeland security to the American public.
    The centerpiece for that, as you know, has been our ``Unity 
of Effort Initiative,'' under which we have established joint 
task forces for border security on the Southwest and Southeast 
borders. We have established a Joint Requirements Council (JRC) 
to improve our acquisition practices and efficiency. We have 
beefed up our Office of Immigration Statistics. We are, as many 
of you know, developing better border metrics for evaluating 
and measuring border security as well as total attempts to 
cross the border under an initiative that we started called 
``BorderStat.'' I appreciate the advice and input I have 
received from Members of this Committee in this regard. We have 
initiated something called the ``Data Framework Initiative'' to 
better integrate data that we collect within the Department, so 
that the data, itself, is not stovepiped and is effectively 
utilized against all of our databases.
    This Committee helped us through the authorization of a 
number of activities, so that they are cemented into law, 
institutionalized, and will go beyond my job as Secretary and 
the time I have as Secretary.
    I appreciate the effort, and I have reviewed the 
legislative language of this Committee to institutionalize our 
joint task forces, our Joint Requirements Council, and our 
joint duty, to elevate the Office of Policy within DHS to the 
Under Secretary level and to elevate the importance of that 
Office of Policy, which I think is indispensable to our ``Unity 
of Effort Initiative.''
    Thank you, Senators, for passing out of this Committee 
legislation to specifically authorize our Office for Community 
Partnerships, which spearheads our CVE efforts.
    We also believe it is important to consolidate our Domestic 
Nuclear Detection Office (DNDO) and health affairs functions 
more effectively and efficiently around our Chemical, 
Biological, Radiological, and Nuclear Defense (CBRNE) Office, 
which is in pending legislation right now.
    I also support the restructuring of the National Protection 
and Programs Directorate (NPPD) into a more streamlined, 
effective, and operational cybersecurity and infrastructure 
protection agency.
    I know that we have been working effectively with your 
staffs on authorizing a number of these things. I fully support 
this effort and hope that we can continue to work down this 
path in the future.
    Thank you very much, and I look forward to your questions.
    Chairman Johnson. Thank you, Mr. Secretary.
    I want to go right to community partnerships, because you 
just mentioned that. In a briefing with the Federal Bureau of 
Investigation officials, I was struck by one of the comments 
that, when officials go into communities--Muslim communities--
and talk about youth that may be, potentially, radicalized, 
oftentimes, members of the community think we have perfect 
information, that we know exactly who might be prone to 
radicalization. Nothing could be further from the truth.
    Can you speak a little bit about it, in terms of what you 
are trying to do in terms of engagement that way.
    Secretary Johnson. Yes. Thank you for that question. Given 
the nature of the problem and the nature of the current threat, 
which, in the homeland, includes terrorist-inspired attacks, 
law enforcement and the U.S. Government is not always in a 
position to know about someone who is self-radicalizing. It is 
the case, however, that, in almost every instance I can think 
of concerning a self-radicalized actor, somebody close to that 
person was in a position to know.
    So, since I have been Secretary, I have made our CVE 
efforts a top priority. I think these efforts are fundamental 
to the Department of Homeland Security's missions. So, the 
first goal is to build bridges with communities, including 
Muslim communities. I have personally traveled to almost every 
major metropolitan area in this country that has a significant 
Muslim population, and when I go, I want to be sure that State 
and local law enforcement is with me. So, the goal is to simply 
build bridges with these communities to say, ``help us help 
you,'' and, ``if you see something, say something.''
    Beyond that, the mandates that I have given our Office for 
Community Partnerships are to engage the technology sector, so 
that the technology sector helps communities amplify the 
counter-message to the Islamic State of Iraq and the Levant 
(ISIL), and to engage philanthropies. How can philanthropies 
help and support a lot of community activities?
    I am pleased that, in this year's budget, we have money for 
our CVE efforts, and, in this year's budget submission for 
2017, we have also requested some money for our CVE efforts.
    But, those are basically my three goals for our CVE efforts 
and I believe they are as important as any other Department of 
Homeland Security mission right now, given the nature of the 
threat we face.
    Chairman Johnson. OK. And again, I appreciate your efforts 
that way. I think that, probably, one of the most important 
things we can do is to engage those communities in a positive 
way.
    I do have to bring up unaccompanied children (UAC). I think 
we are still at, or possibly beyond, crisis proportions here, 
largely because--and, listen, we went down to the border. We 
were incredibly impressed with what your Department did 
addressing the crisis in 2014. But, we have gotten more 
efficient at apprehending, at processing, and at dispersing, 
and Senator Portman held a great hearing in the Permanent 
Subcommittee on Investigations (PSI) on the depredations of 
some of these children who have been processed and dispersed, 
and we have kind of lost track of them.
    I want to just talk about the numbers. Through January of 
this year, we have had 16,438 unaccompanied children from 
Central America. That compares to 11,034 in fiscal year 2014. 
So, if we just did the math on that, just prorate that, in 
2014, we had 51,705 unaccompanied children come in. This was 
the crisis year. If we maintain this pace, we will have 77,000 
in 2016.
    Now, we have not gotten the February 14 numbers. That would 
be my first question. How many unaccompanied children were 
apprehended, processed, and, probably, dispersed in February?
    Secretary Johnson. Well, I want to compare numbers with 
you. I am looking at my latest and best, in terms of UAC 
numbers. You are correct that in the fall of 2015, we saw an 
increase. Fiscal year 2014--we saw the spike in the summer of 
2014 that everybody knows about. Fiscal year 2015, after the 
things we put in place, we had a pretty good year. It was down 
significantly from fiscal year 2014. In terms of total 
apprehensions on the Southwest border, it was the second lowest 
number since 1972, in terms of total apprehensions.
    In the fall--in October, November, and December--we saw an 
increase in UACs. The number was 6,775 in the month of 
December. In January, the number went down by more than half.
    Chairman Johnson. This is just the chart,\1\ in terms of 
the total, by fiscal year, through 2015. So, we had the spike 
in 2014: 51,000. Last year, it went down to 28,000. But, again, 
my point is, just in the first 4 months for which I had 
numbers, if you annualize those numbers, we would be up to 
77,000 for fiscal year 2016.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Johnson appears in the Appendix 
on page 60.
---------------------------------------------------------------------------
    Secretary Johnson. Well, I was just getting to that. In 
January, we saw a significant dropoff, down to 3,111. In 
February 2016, there were 3,113 UACs. The March number so far--
we are only 7 or 8 days into March--is pretty much at the same 
pace as February--slightly higher.
    As I think everybody here knows, in early January, we began 
a series of public, concerted efforts in interior enforcement 
that focused on families, but we have also focused on just 
about every other population that has entered this country 
recently. Those apprehended at the border are a top priority. 
We focused more recently on those who came into the country as 
children or adults--and those people are in removal 
proceedings.
    The total number of those sent back to Central America this 
fiscal year is just over 28,000. The total number sent back to 
Mexico, either by Customs and Border Protection (CBP) or 
Immigration and Customs Enforcement (ICE), this fiscal year, is 
around 128,000. So, those are pretty significant numbers. And, 
so, we are sending a very public message that, if you come here 
illegally, and if you do not have a valid claim for asylum and 
you have been ordered to be deported by an Immigration Court, 
we will send you back--and I have been very public about that.
    Chairman Johnson. But, again, the point being--again, in 
February 2014--I did not have the numbers for 2016 to compare--
there were about 3,400 unaccompanied children coming in from 
Central America. So, you are saying in February 2016, it was 
about 3,100?
    Secretary Johnson. The February 2014 number was 4,840.
    Chairman Johnson. So, again, one of the reasons I want 
border metrics is so we are talking about the same----
    Secretary Johnson. Well, I am happy to share this.
    Chairman Johnson. OK, and we will take a look at that. But, 
the bottom line----
    Secretary Johnson. The February numbers were lower.
    Chairman Johnson [continuing]. We are pretty darn close, 
and if you annualize where we are in fiscal year 2016, we would 
be looking at 77,000 this year, versus 51,000 in the crisis 
year of 2015. I mean, we can massage the numbers a little bit, 
but it is pretty darn close.
    Secretary Johnson. I do not think that is accurate, sir.
    Chairman Johnson. What do you have year to date through 
February--unaccompanied children from--not by month, but year 
to date?
    Secretary Johnson. Year to date, UACs this fiscal year, we 
have 23,553.
    Chairman Johnson. So, in 4 months, we are up to 23,000 
already.
    Secretary Johnson. 23,553----
    Chairman Johnson. 23,000. So, that is just in 4 months.
    Secretary Johnson. 5 months.
    Chairman Johnson. OK. That is through 5 months. We are 
still at a pretty high pace. We will compare those figures.
    Secretary Johnson. The numbers are high. Definitely, the 
numbers are high. They are higher than I would like them to be. 
But, I have not done the math and I am not sure that they are 
at the same February 2014 pace. But, again, I am happy to share 
these with you, sir.
    Chairman Johnson. We will look at that. But, again, my 
point is that 2014 was a crisis. Right now, I think we are 
running ahead of 2014 levels from the numbers I am getting----
    Secretary Johnson. I do not believe that is true.
    Chairman Johnson. Well, we will compare notes, because I am 
just talking about from Central America.
    I have run out of time. Senator Carper.
    Senator Carper. I just ran the numbers really quickly, and 
just from shorthand, back-of-the-envelope numbers, if we are at 
24,000 through the first 5 months, that would, I think, equate 
to an annual number--if it holds for the next 7 months--we 
would be looking at about 57,000. I think that is how it works 
out.
    Secretary Johnson. I think the difference here may be, 
Senator, that you are looking at Central America numbers. I am 
looking at the total numbers.
    Senator Carper. OK.
    Secretary Johnson. That may be the difference.
    Senator Carper. OK. Let us just stick with Central America 
for just a moment. I want to applaud the Administration for 
deciding to, not just to support force multipliers on the 
border--that is important. We need to invest not just in Border 
Patrol officers, but we need to invest in fixed-wing aircraft. 
We need unmanned aircraft. We need to invest in helicopters, 
boats, and motion detectors--all of the above. And, the 
Administration's budget actually calls for a very small 
reduction--I think by maybe 300 out of maybe 21,000 or 22,000 
Border Patrol officers--but a significant investment in 
technology that will enable the Border Patrol officers that we 
do have deployed to be more effective--and I applaud that.
    My colleagues have heard me say more than a few times, with 
respect to Central America and the flow of unaccompanied 
children and families--they are not coming from Mexico. As we 
know now, there are more Mexicans going back into Mexico from 
the United States than coming from Mexico into the United 
States. And, for the most part--the flow of these numbers 
actually represent people, but most of them are coming from 
Honduras, Guatemala, and El Salvador.
    We spent, over the last decade, a quarter-of-a-trillion 
dollars to strengthen our border with Mexico. In the same 10 
years, we spent less than 1 percent of that quarter-of-a-
trillion dollars to address the root causes for why all of 
these folks are trying to get out of Honduras, Guatemala, and 
El Salvador to make it to our country.
    The Chairman and I have been down there. Others have been 
down there. They lack hope. They lack economic opportunity. 
There is rampant violence. And it is actually a situation that 
we are complicit in, because we buy drugs. We are addicted to 
the drugs. They flow through those countries. And, we send 
money and guns down to those countries and make life miserable 
for the people who live there. They want to leave and they want 
to come here.
    And, rather than just build our fences and walls and so 
forth, we need to also--while it is important, border security 
is hugely important, we also need to address the underlying 
root causes.
    They have come up with their own plan. It is like a ``Plan 
Colombia'' that was very successful in turning Colombia around. 
The plan in Central America, among the three countries of 
Honduras, Guatemala, and El Salvador, is called the ``Alliance 
for Prosperity.'' It focuses on governance--the ability to 
govern. Number 2 is security and rule of law. And, number 3 is 
economic development.
    And, the idea is not for us to literally turn over American 
tax dollars to those governments to focus on those three items. 
They have to raise their own money. And, what we do is we 
provide funding that goes through our own efforts, through a 
nonprofit organization. I think it is a very smart strategy. We 
need to be able to walk and chew gum, and I think with the 
Administration's proposal, we will do that--and I applaud that.
    The Chairman has already touched on the unaccompanied minor 
surge with you. Let me just say, the numbers for the first 3 
months of the fiscal year were very concerning. The numbers for 
the months of January and February are much better, and I think 
you sent a message. I think maybe that message has been 
received by the folks down there that would otherwise want to 
try to come up here.
    I want to focus, for the last minute or so that I have, on 
the impact of DHS fees, and their impact on the Department of 
Homeland Security and on the public. Mr. Secretary, could you 
just talk a little bit about why we need to increase some of 
the fees--I think 2 of them that CBP and TSA collect. What will 
be the impact on the average American if those fees are 
increased slightly? What will be the impact on the Department 
of Homeland Security if we do not support the fee increases 
that the Administration has requested?
    Secretary Johnson. Let me begin by saying that the budget 
request, as I said before, does reflect hard choices to stay 
within the caps. Part of our request is a request for 
authorization of the fee increase, with respect to air 
passengers, and the increased airline fee. The proposed 
increase would restore revenue fees from the airlines. I 
believe the amount is $470 million.
    Senator Carper. Is that about a dollar a plane ticket?
    Secretary Johnson. Well, that is for the airlines.
    Senator Carper. OK.
    Secretary Johnson. The proposed passenger fee increase, I 
believe, is $5.60 to $6.60. That is a dollar increase.
    The underlying rationale for the proposed fee increase is 
that it goes to pay for aviation security and border entry at 
airports and that those who use the system--as opposed to 
taxpayers, generally--should help a little more in paying for 
those things--in paying for those services for aviation 
security.
    My recollection is that these two proposals would generate 
about $900 million in revenue for the Department. If these are 
not increased, we are going to have a real problem finding how 
to pay for aviation security. Aviation security right now, 
given the world environment, in my judgment, is critical for 
the Congress to support. I was very pleased by this year's 
budget and next year's budget request. We have held the line on 
Transportation Security Officers (TSOs). We are not reducing 
them anymore. And Administrator Peter Neffenger and I are 
making a number of other investments in aviation security. We 
need help to pay for that. Right now, I believe aviation 
security is critical, given the world situation.
    Senator Carper. And I agree. Thank you so much.
    Secretary Johnson. Thank you.
    Chairman Johnson. Senator Portman.

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. Thank you, Mr. Chairman. Secretary 
Johnson, it is good to have you before the Committee again.
    I have so many questions for you, I do not know where to 
begin, but I am going to, if I could, try to get some rapid 
responses to four issues.
    First is an issue, as you know, we are dealing with right 
now on the floor of the U.S. Senate, which is this epidemic of 
prescription drug and heroin addiction and overdoses. We will 
lose probably 25 people in Ohio, this week, and 100 people in 
America, today, to overdoses. We understand that this heroin is 
primarily coming from Mexico, over the border. We recently had 
testimony in the House Judiciary Committee from the Texas 
Director of Public Safety saying this porous border with Mexico 
provides cartels reliable means to infiltrate this country--to 
smuggle and traffic drugs and people in the United States. He 
talked about some of the cartels and what they engage in.
    Can you give us a sense of what we could be doing better to 
interdict these drugs, to keep them from coming into the United 
States, and, specifically, tell us, if you could, what percent 
of the heroin coming in is apprehended and stopped at the 
border and what percent is coming into our communities.
    Secretary Johnson. Well, a couple of things. One, most of 
the heroin that is brought into the country is over land--not 
by sea. The Coast Guard is focused on this, but most of it is 
smuggled by land. I do know that the percentage of heroin--
interdicted by CBP that was smuggled--those numbers--that 
volume has gone up between last year and the year before. That 
has been going up because of our sustained, enhanced efforts.
    This is an effort that our Joint Task Forces (JTFs) have 
undertaken. It is an effort that CBP has undertaken. And, it is 
an effort that ICE's Homeland Security Investigations (HSI) has 
undertaken as well.
    I do not have, sitting here, an estimate of what percentage 
is interdicted versus what percentage gets through. If we have 
that number, I will see if I can provide it for you.
    Senator Portman. That would be helpful. The number that you 
hear commonly is that 9 out of 10 of these packages of heroin, 
which are killing our constituents and the people we represent, 
are getting through, and----
    Secretary Johnson. I do know that the volume of seizures by 
CBP and by HSI has been going up lately.
    Senator Portman. I would love to follow up with you on that 
and figure out how we can do a better job. I mean, this 
legislation called the Comprehensive Addiction and Recovery Act 
of 2016 (CARA), before the Senate today, focuses more on 
prevention, treatment, recovery, helping law enforcement, and 
so on. But one of the issues, obviously, that many of my 
colleagues and I are concerned about is how do you stem this 
flow and, therefore, increase the price, because one of the 
issues is prescription drugs are being replaced by heroin 
because the price is so low--and it is flooding our 
communities.
    On the unaccompanied children issue, as you know, we held a 
hearing at the Permanent Subcommittee on Investigations on this 
issue. This is where unaccompanied children come in, and we 
talked about the numbers. It looks like, as you said, the 
numbers are going to be high again this year--although you have 
made some progress in the last couple of months. The fact is 
that we have thousands of these kids in detention with the 
Department of Health and Human Services (HHS). You do not 
detain them, HHS does, and HHS releases these children to 
adults who are called sponsors. The idea is they go to these 
sponsors because they can come to an immigration hearing.
    Sadly, what we found out in our investigation was that some 
of these children were actually placed, not with sponsors who 
were family members or surrogates of family members, but with 
actual traffickers. And, in Ohio, we had kids from Guatemala 
who ended up at an egg farm being exploited, working 6 to 7 
days a week, 12 hours a day, and having their paychecks taken 
away from them by traffickers. These traffickers got the kids 
from the Department of Health and Human Services.
    My question to you is very simple this morning. Are you 
aware of this, first, and, second, are you working with HHS to 
come up with a way to actually implement legislation that is 
currently in place, which would prohibit these children from 
being placed with traffickers.
    Secretary Johnson. I am aware of these very unfortunate 
situations, including the one in Ohio, sir. I know that HHS 
Secretary Sylvia Burwell is very focused on the placement of 
the children. It is her legal obligation. And, together, we 
have been working on ensuring adequate placement consistent 
with the law.
    Senator Portman. You do have a role here. As you know, we 
have, in our report, indicated that HHS can work better with 
DHS to try to address this issue.
    Final question--I have more, but--is just this issue of 
social media and terrorism. We saw with regard to the San 
Bernadino attacks, that Tashfeen Malik, the female shooter, was 
on social media talking about her jihadi agenda. In fact, she 
went so far as to have an anti-American remark beside a photo 
of a plane crashing into the World Trade Center--and yet, she 
went through several screenings and none of that was picked up.
    Can you tell us briefly what you are doing to be sure that 
social media is something that is looked at as people are 
screened--not just for the K-1 visas for fiancees, but for all 
of our non-immigrant visas.
    Secretary Johnson. A couple of things. First, as the FBI 
Director has commented, Ms. Malik's social media was not public 
prior to her entry into the United States. Notwithstanding 
that, we have, over the last 2 years, enhanced our use of 
social media in connection with immigration benefits. We have a 
number of pilot programs going on now. There was a ``Social 
Media Task Force'' that recently gave a report to me. I 
directed the Department to go even further in our use of social 
media. We use it now for something like 30 different 
investigative intelligence purposes across the Department, but 
we are enhancing the use of social media in connection with 
immigration benefits--both refugee vetting and K-1 review.
    Senator Portman. Thank you, Mr. Chairman.
    Chairman Johnson. Senator Tester.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Thank you, Mr. Chairman. Thank you, Ranking 
Member.
    Thank you, Jeh, for the job that you have done as 
Secretary. You and your team need to be commended on that. It 
is a tough job. Thank you.
    I want to just talk a little bit about the Port of Raymond. 
We visited it a little off schedule, outside of the door. There 
is a recommendation to reduce it from 24 hours to 18 hours. 
First of all, thank you for taking public input. I hope you 
continue to take public input on border crossing with the folks 
that live in that region, because it is important.
    I think, from a security and an economic standpoint--I know 
you are going to look at both--and I think it is really, really 
important. I think that, as we try to continue to grow our 
trade with Canada, I think it is just very important we take a 
look at Raymond and look at it from that perspective. That is 
all I am going to say on that point. We will follow up on that.
    Since TSA was brought up and fees were brought up, I want 
to talk just a little bit about full body scanners, because 
Administrator Peter Neffenger was in front of our Homeland 
Security Subcommittee on the Senate Appropriations Committee 
last week, and we have a number of them in Montana. He said 
there is a percentage of TSA folks who do not have the full 
body scanners available. Is that because of lack of money?
    Secretary Johnson. I am not sure. I am not sure whether it 
is lack of money or whether we believe some other technology is 
better.
    Senator Tester. OK.
    Secretary Johnson. I do know that we are doubling down on 
our use of technology at airports for aviation security in 
reaction to the Inspector General's (IG's) test results last 
summer.
    Senator Tester. Yes.
    Secretary Johnson. I gave the Administrator a very 
aggressive 10-point plan----
    Senator Tester. Right.
    Secretary Johnson [continuing]. To reevaluate our 
technology--and I know he is doing that.
    Senator Tester. Yes. Well, I would just say that I agree 
with you when we talk about air travel. I can tell you that in 
a lot of these airports--they are big airports for Montana--but 
they are smaller airports when you compare them to Dulles, 
O'Hare, and places 
like that. I think it is critically important that they have 
the same--that we put forth the same effort of security, and if 
you could kind of look after that, I would sure appreciate it.
    I want to also talk about community partnerships. This 
administration is proposing a $560 million cut to the Federal 
Emergency Management Agency (FEMA) preparedness grants, which 
includes ``Operation Stonegarden'' funding that impacts our 
Indian communities in a big way. It is pretty steep. Can you 
tell me why you are doing it this year? Last year, I think they 
were held pretty constant.
    Secretary Johnson. I support the President's budget. The 
President's budget request reflects hard choices to live within 
our caps. Having said that, I have seen, firsthand, the 
importance and the effectiveness of our FEMA grant money, which 
is delivered to State and local law enforcement and to 
communities for such things as active shooter training and 
overtime for police and fire. Grants are important--very 
important.
    Senator Tester. Yes. I think they are critically important, 
and oftentimes, I wonder if the Administration does not cut 
programs that are really, really good programs, just figuring 
we are going to bump them up. And, I hope that is not the case 
here. I hope it is not the case anywhere in the budget, but we 
are going to have to do something about that, because, quite 
frankly, I feel the same as you. They are very important.
    I want to talk about border staffing really quickly. 
According to the 2017 budget request, DHS has a target of 300 
fewer border agents than last year. Tell me--that is on the 
Northern border?
    Secretary Johnson. Yes.
    Senator Tester. Tell me how that is going to work, because, 
quite frankly, I thought you were undermanned at this point 
now--that you were looking for more agents. If we are going to 
cut an additional 300, it looks to me like we are putting 
something at risk here--but maybe I am not seeing something you 
are.
    Secretary Johnson. Well, I believe that the allocation that 
you see reflects a judgment about where the risk is and where 
the vulnerabilities are. As you know, Senator, we have a pretty 
active Southern Border right now. I also know that we are not 
doing as good a job as I would like to see us do, in terms of 
hiring--hiring up to the levels that Congress has authorized 
and appropriated. And the Commissioner of CBP has very 
aggressively taken steps to recruit and to get people through 
the vetting process.
    In terms of the allocation at the Northern Border, it is 
something that I insist that we look carefully at every year 
when we make these judgments, but I do believe it probably 
reflects a judgment about where the vulnerabilities and the 
needs are, Senator.
    Senator Tester. OK. I will wrap it up really quickly, 
because my time is up. I just think that, when we are talking 
about drugs coming across the border, they do not all come 
across the Southern Border. And I think that if we have a 
Northern Border hiring problem, there are some things we can 
do. Places like where Heidi and I live are pretty rural. You 
are probably not going to get somebody from Chicago to move out 
to Plentywood, Montana, but you would get somebody from Scobey 
to do that. And, so, I think it is important that we start 
building bridges with our university systems in those States, 
because they can help you out a lot.
    With that, I will just leave you with these words: Do not 
forget about the Northern Border. It is damn important. I live 
70 miles south of it. And, if we take our eye off of that, they 
will go to where the weakest link is.
    Thank you, Secretary Johnson.
    Secretary Johnson. Thank you.
    Chairman Johnson. Senator Baldwin.

              OPENING STATEMENT OF SENATOR BALDWIN

    Senator Baldwin. Thank you, Mr. Chairman and Mr. Ranking 
Member.
    I want to thank you, Secretary Johnson. The first question 
relates to a question that Senator Tester just asked with 
regard to State grant programs, FEMA preparedness grant 
programs. I am concerned about the proposed cuts as well as 
their impact and their potential for impact in the State of 
Wisconsin.
    The DHS grant program, which is, I think, budgeted at $267 
million less than the Fiscal Year 2016 enacted level--this 
funding has been critical in my home State. Recently, these 
funds have provided equipment and training to our fusion center 
in Milwaukee, which, I might just add, is where a terrorist 
attack was thwarted just a couple of months back.
    Let me ask a question about that, and then before you 
answer, put forth an additional question related to the FEMA 
preparedness program. I would like to see or hear the 
justification for the proposed cuts to the State grant 
programs. And, are there other efforts that we should be aware 
of that may supplement the critical work of these programs?
    Switching to the cuts in the FEMA preparedness programs, 
particularly a 63-percent cut to the National Domestic 
Preparedness Consortium (NDPC), I also want to point out the 
impact there in the State of Wisconsin. The Transportation 
Technology Center (TTC) uses funding for its ``Crude Oil by 
Rail Program.'' Over the past five or so years, Wisconsin has 
seen a huge escalation in the number of oil trains that are 
coming through from the Bakken to points west and south, and, 
because of this, it is so important that our first responders 
have the opportunity to receive training on the horrible 
possibility of a train derailment. We have had several, by the 
way, in the State. Fortunately, we have not seen any 
explosions.
    But, in your assessment, can you explain why the 
President's request for the National Domestic Preparedness 
Consortium was more than $60 million less than Fiscal Year 
2016? And, to what extent does DHS prioritize funding for 
proactive programs that prepare local first responders to 
respond to natural or human disasters?
    Secretary Johnson. Well, let me begin with the last part of 
your question first. We place top priority on programs that 
proactively get at preparedness and prevention, which is why, 
at various different levels, we are funding State and local law 
enforcement, first responders, emergency responders, and even 
paramedic equipment. Having said that, as I remarked before, 
this budget does reflect hard choices. The budget deal that was 
made by Congress and the President for 2016 and 2017 provides 
for greater levels in 2016 than it does for 2017. So, 
regrettably, the proposal you received has the cut for the 
various different grants.
    Congress will ultimately do what you believe is necessary 
and appropriate by way of funding, but that is where we believe 
we needed to make some reductions. But, as I said before, I do 
believe these grants are very important.
    Senator Baldwin. I am going to stop you there, because I 
want to fit in one quick, additional question--but we will 
certainly be following up on that.
    Last November, I wrote a letter to Commissioner Kerlikowske 
along with Congressman Reid Ribble, from my State, about an 
issue at the Austin Straubel International Airport in Green 
Bay. This airport, which is a port of entry (POE) serving 
Northeastern Wisconsin, has hosted the CBP's Green Bay Port 
Office for over 20 years. However, in July 2011, CBP informed 
the airport that the current port office did not meet its needs 
and that a general aviation facility would be necessary for CBP 
to remain at the airport. The airport subsequently worked with 
CBP to construct a general aviation facility and spent over $3 
million to meet CBP's specifications.
    Unfortunately, in July of last year, CBP reversed course 
and informed the airport that it would no longer occupy the 
facility. Let me emphasize that this was after the airport paid 
more than $3 million on the construction of the facility. This 
was after the airport worked with CBP on the design of the 
general aviation facility and after CBP signed off on the 
facility.
    This is unacceptable, and as I made clear in my letter, 
there are no laws or rules that we can find that prevent CBP 
from occupying the general aviation facility, as it has 
claimed. So, it has been over 4 months since we wrote that 
letter, and I raised the issue with the Commissioner. I have 
yet to receive a response to the letter.
    So, I want to ask you, today, and raise this to your 
attention. Will you commit to looking into this issue and 
responding to my constituents' concerns?
    Secretary Johnson. Yes, I am aware of the issue and I am 
already looking into it and I will ensure that you receive a 
prompt response--and I will be interested in the response.
    Senator Baldwin. OK. And, when can I expect a response?
    Secretary Johnson. How about within the next week?
    Senator Baldwin. That would be great. Thank you.
    Secretary Johnson. I do not know what the status of the 
response is, but I will ensure that you get a response within 
the next week.
    Senator Baldwin. Thank you.
    Chairman Johnson. Senator Heitkamp.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you, Mr. Chairman, and thank you, 
Secretary, for the great work that you do on behalf of the 
people of this country.
    I want to just reiterate what Senator Tester began saying, 
which is, those of us on the Northern Border believe that we 
are entitled to a level of protection and a level of border 
security that we do not always see. And, we measure the open 
positions, the ones that your folks have already said we need 
to protect the Northern Border, but yet we have huge vacancies. 
Recognizing the challenges that you have in recruitment in 
places like Portal, North Dakota, I want to just reiterate the 
absolutely critical importance of getting more attention to the 
Northern Border.
    With that said, a couple of things. First, one of the 
things I frequently hear from the folks down on the Southern 
Border is that there is not really a plan, that the last kind 
of organized plan, or strategic plan, for the Southern Border 
is a 1990s plan, and that there is not a sense of coordination. 
What is your response to that?
    Secretary Johnson. My response is that, 2 years ago, we 
created joint task forces for the Southern Border, where a 
Joint Task Force Director is responsible for coordinating all 
of the DHS assets and resources devoted toward border security 
in the Southwest and the Southeast. Part of that responsibility 
is that, every year, they have to submit to me a plan for 
border security--which includes not just people, but also 
prohibited items, like illegal narcotics, and so forth. So, we 
do have strategic plans for how we intend to secure the border 
in each place.
    Senator Heitkamp. Why do you think that the other law 
enforcement agencies believe there is not an overall strategic 
plan?
    Secretary Johnson. I am not sure. Other law enforcement 
agencies are certainly aware of our joint task forces and help 
support them.
    Senator Heitkamp. Yes. I say this not by way of criticism, 
but because that communication seems to be a gap here, in terms 
of what you say you have and what people on the border--whether 
it is people who are living on the border or people who are 
charged with the responsibility of protecting people on the 
Southern Border--believe there is. And, so, increased 
communication and understanding, especially making sure that 
the people who work for your agency actually understand what 
that plan is and that it is not just some document that is on a 
shelf in Washington, D.C.
    The second thing, as we are talking about the movement of 
narcotics across the border--with the movement of marijuana, I 
think that we would all agree that marijuana is basically 
carried across. But, one of the concerns that I have with 
narcotics is that they are typically tunneled across. So, we 
have been talking to your staff about tunnel detection--about 
technologies.
    I guess my question to you is, do you believe you have a 
tunnel detection strategy on the Southern Border and are you 
deploying the best equipment? If you cannot answer that in kind 
of an open session, I think it would be good to do some kind of 
secured briefing on tunnel detection.
    Secretary Johnson. I would be happy to give you a secure 
briefing on that. We do have a tunnel detection capability and 
we have a very focused effort on this--but I could give greater 
detail in private.
    Senator Heitkamp. Right. In this budget, do you believe 
there have been enough funds allocated to that kind of 
technology?
    Secretary Johnson. Within the confines of the caps we have 
to live with, yes. But, I could always use more in the absence 
of budget restraints.
    Senator Heitkamp. Well, we had an opportunity to see some 
of this in Israel, as it relates to securing their border, and 
I am very interested in what kind of tunnel detection you 
have--whether we are deploying the number of resources that 
would reflect our concern about what it is that is moving 
through those tunnels.
    Finally, I would just like to talk about first responder 
grants. I think we have been very concerned about preparedness 
for first responders--whether they are responding to trains or 
whether they are, in fact, responding to terrorist activity--
and yet we see a decrease in that kind of funding for first 
responders. I am going to run out of time, but I just want to 
impress upon you that those folks are on the front line. There 
are not enough Federal agents. There are not enough Federal 
personnel to protect this country. They are asking a very 
minimal amount of investment in helping secure that mission, 
and the last place we should be cutting, in my opinion, is 
grants for first responders--whether they are responding to a 
train or whether, in fact, they are responding to terrorism--
and being prepared to respond.
    Just a note. When, in fact, we have had a very high-profile 
incident of a train exploding, the single thing that the fire 
chief told me is that the command and control incident training 
that he received at FEMA was absolutely critical. So, it is 
deployed every day. You do great training. Let us not lose 
sight of our partnerships with the local folks.
    Secretary Johnson. Thank you.
    Chairman Johnson. Senator Booker.

              OPENING STATEMENT OF SENATOR BOOKER

    Senator Booker. Thank you very much.
    Again, I just want to echo the words that were said and 
really compliment you on your work and your dedication--and I 
just appreciate your leadership, especially during these 
difficult times.
    I just want to jump right in with regards to CVE. I was 
happy that this Committee passed two bipartisan bills, and has 
made it very much a priority. We passed authorization for the 
Office of Community Partnerships. I really am grateful for the 
leadership of Senator Carper and Senator Johnson in helping 
this Committee to come together around these issues.
    And, I am pleased to see the funding that was in the bill--
in the DHS-led CVE work--really becoming a part of the 
President's budget, which is something, again, I am very 
grateful for. $49 million dollars has been requested for DHS's 
CVE efforts. If you look closely, unfortunately--at least I 
seem to see it that way--we see $10 million requested in grant 
funds for CVE-related activities at the local level and $39 
million for activities targeted at preventing and preparing 
for--and this is how it reads--responding to complex, 
coordinated terrorist attacks.
    And, so, my concern with this language is that the majority 
of this money would be spent on preparing for a law enforcement 
response, while CVE is intended to create partnerships for 
community groups to do work to prevent radicalization really 
before law enforcement gets involved. So, it seems almost as if 
this funding is not really targeted towards the idea of CVE in 
the first place.
    And, so, how do you really envision this money being spent 
and how can we ensure that we are really bolstering some of the 
efforts, of which we are already starting to see some signs 
that they could be very fruitful, in general, as opposed to the 
law enforcement response that sort of ignores--to me--community 
organizations, universities, educators, tech folks, and others?
    Secretary Johnson. Yes. The language you read is for 2016, 
right?
    Senator Booker. Yes.
    Secretary Johnson. Yes. Right. To be candid, I had the same 
reaction you had. We learned we had $50 million for CVE, but 
then upon closer examination, $39 million of that is for 
terrorist attack preparedness, which is important, but it 
leaves just $10 million for our CVE efforts.
    As I explained earlier, CVE is a huge priority. One of the 
things I heard, repeatedly, when I would go to these 
communities in Minneapolis or elsewhere is the need for 
resources. We need help supporting our efforts at the local 
level.
    My recollection, Senator, from the language you read, is 
that there was some line in there that gave me some 
flexibility, in terms of how we allocate that--but I could be 
wrong.
    Senator Booker. And, I will just say, just to get to my 
next area of questioning, you and I both know budgets reflect 
priorities. We can say that this is a priority, but, really, 
the paucity of investment being made--what I found from being a 
local leader--and I know you know this better than I do--is 
that creating these partnerships--creating these 
relationships--is incredibly valuable--not just in CVE efforts, 
but also in helping to detect radicalization, in the first 
place. So, I would just really emphasize the importance of 
that.
    And, one thing I want to say is, I am curious if your folks 
can get back to me about whether there are a lot of concerns 
coming from the Muslim community over all this being focused 
just on the Muslim community, when we know there is 
radicalization in, say, neo-Nazi groups and others that have--
and hate groups that have perpetrated violence and terroristic 
activities within our communities. I am hoping that some of 
this CVE effort is focused there, as well.
    But, just real quickly, being that you and I have this 
kinship in the love of the State of New Jersey, I just want to 
bring to your attention----
    Secretary Johnson. I love the taxes I pay there, too.
    Senator Booker. We appreciate the taxes you pay, sir, even 
though you spend so much of your time here.
    But, I really need you to comment on something that I hear 
so much anger and frustration over from people that live in our 
metropolitan area: the lines at Newark Airport, which are just 
outrageous. The holiday season--perhaps you do know that it was 
reported that we had such long lines that it led to delays 
exceeding an hour at some of these airlines that led, as one 
single airline reported, to about 200 passengers missing a 
flight. I believe that we have to do something to create more 
efficiencies. I get people coming and screaming at me on social 
media and the like, just so frustrated about this particular 
airport being worse than others in our country.
    And, so, my question is, with the increase in funding for 
TSA in the President's budget, what flexibility do you have to 
focus on where the problem is? I fly into other airports in our 
region. I just do not see it as bad as what people are 
experiencing in Newark. We now have spring and summer travel 
seasons approaching. Can we not do something to alleviate this 
outrageous problem that, rightfully, is angering people at the 
Newark Airport?
    Secretary Johnson. A couple of things. First, part of the 
increase in wait times is due to the increased volume of air 
travel. That is a fact. Part of it is due to the increased 
volume of air travel.
    Part of it is also due to the re-emphasis that the 
Administrator and I have put on the airport screening of those 
in the longer lines. So, one of the things you could say to 
your constituents, Senator, is, ``join `TSA PreCheck' for the 
shorter line.'' That is one way to get through faster.
    With respect to the budget, it is the case that, in 2016 
and 2017, we have reversed a steady decrease in the number of 
TSOs for this reason. So, this budget submission reflects 
holding steady on it with an emphasis on technology, so that we 
are not focused, solely, on risk-based strategies that lead to 
a decrease in personnel. We have reversed that trend to deal 
with wait times and the like. But, increased volume is also 
contributing to this, without a doubt.
    Senator Booker. So, can somebody just get back to me 
with--I understand the PreCheck warning, but, I mean, we tell 
people to show up an hour before their flight and it seems like 
we should be telling them 2 hours before their flight. Can 
somebody get back to me with a plan to reduce wait times--if 
there is one for Newark Airport.
    Secretary Johnson. Yes. Well, as you know, Senator, a lot 
of it depends on whether you are at Terminal A or Terminal C.
    Senator Booker. Understood.
    Secretary Johnson. Right.
    Senator Booker. All right. Thank you, sir.
    Secretary Johnson. OK.
    Chairman Johnson. Senator Peters.

              OPENING STATEMENT OF SENATOR PETERS

    Senator Peters. Thank you, Mr. Chairman, and I want to 
thank you, Secretary Johnson, for your testimony today.
    I also want to thank you for your recent visit to Michigan 
to meet with members of the Arab American Muslim community. As 
you know, they expressed a number of issues and concerns to 
you, and they appreciated your hands-on approach to come out 
and talk directly to and to listen to the community. And, I 
just want to say, I look forward to working with you and your 
staff as you work through the number of issues that you heard 
at that meeting--and appreciated.
    Secretary Johnson. That was a good visit to Dearborn. Thank 
you.
    Senator Peters. It was. It was really wonderful, and folks 
are still talking about it, so, thank you for that.
    But, today, I would like to discuss the Blue Water Bridge 
in Port Huron, Michigan. As you know, Mr. Secretary, Canada is 
our largest trading partner, and the land ports connecting 
Detroit to Windsor and Port Huron to Sarnia are absolutely 
critical to our Nation's trade and commerce. In fact, in terms 
of freight measured by the value of shipments--so that which 
goes through those ports of entry--Detroit and Port Huron rank 
numbers 2 and 3 in the country, respectively, moving over $200 
billion worth of trade over those crossings. And, I know you 
know that, firsthand, as well, because I appreciated an earlier 
visit in 2014, when you came out and I accompanied you in 
Detroit and you went to Port Huron to see, firsthand, what was 
happening at those border crossings.
    Last year, at this Committee hearing on the Fiscal Year 
2016 budget, you testified that the case for expanding Customs 
capability at the Blue Water Bridge was clearly there and, in 
response to a letter that I sent, along with Senator Stabenow 
and Representative Miller, Customs and Border Protection 
Commissioner Gil Kerlikowske responded that the Blue Water 
Bridge remains, and I quote him, ``a top priority.'' But, delay 
in the modernization of the customs plaza at the Blue Water 
Bridge has become a real burden for the city of Port Huron, and 
St. Clair County, generally, which continues to lose out on 
potential revenue as the land that was required for the 
expansion actually sits vacant.
    As you are well aware, over 100 properties were demolished 
to prepare for this expansion. Folks believed that it was 
moving forward. There is a large area of just vacant land, 
which does not do much for the tax base of the city. It also 
has other issues that it has to deal with. And, new revenue 
from the construction and operation of that customs plaza would 
help offset that, not to mention, again, it is very critical 
for our Nation. Obviously, efficient border crossings are going 
to be critical for us economically, given that Canada is the 
top export destination for 35 States and that nearly 9 million 
U.S. jobs depend on trade and investment with Canada.
    So, it is a strategic issue for the United States, which 
was identified, as well--and the Blue Water Bridge, 
specifically--as a priority in the 2011 ``Beyond the Border 
Action Plan Agreement'' with Canada. And that is why I am 
disappointed that the project has not received funding so far--
and you have heard those concerns before. There is a need. The 
local community is ready. The project is ready to go. So, I 
would just hope you could explain why the Department did not 
include funding for the Blue Water Bridge in the budget 
submission.
    Secretary Johnson. Senator, as you noted, I have been to 
the Blue Water Bridge.
    Senator Peters. Yes.
    Secretary Johnson. I have seen the backup of tractor 
trailers on the bridge trying to get into the United States 
myself.
    Senator Peters. Yes.
    Secretary Johnson. And, as I said last year, I think the 
case is there. I can report to you that, after projects 
currently underway or soon to be under construction, the 
expansion of the Customs capability at the Blue Water Bridge is 
the highest priority--after the projects currently underway or 
soon to be underway. As I said, I think the case is there. It 
is not just a top priority, it is the highest priority on the 
list of future projects.
    Senator Peters. Yes. Any sort of timeline that you are 
willing to offer with that?
    Secretary Johnson. I do not have one sitting here, but I am 
sure that Customs and Border Protection can give you that, sir.
    Senator Peters. Well, I appreciate that, and I know there 
are also some issues--or at least the potential to have a 
public-private partnership that could be formed, as well, 
perhaps, to accelerate that. It is my understanding 
Commissioner Kerlikowske said that some of these alternative 
financing projects may even speed that up. Do you concur that 
that might even be another way for us to accelerate the 
timeline?
    Secretary Johnson. In my experience over the last 2 years, 
great minds can think of some pretty creative ways to come 
together and solve these problems.
    Senator Peters. Well, great. Well, I appreciate that.
    Secretary Johnson. The public-private partnerships and the 
like----
    Senator Peters. I appreciate that, Secretary, and I 
appreciate that it has gone from a high priority to the highest 
priority, so that is encouraging to hear that----
    Secretary Johnson. That is what I have on this piece of 
paper right here. [Laughter.]
    Senator Peters. Well, if it is on paper, it must be true, 
so thank you, Mr. Secretary. I appreciate it.
    Secretary Johnson. Thank you. And, I personally also 
believe in the case, too, having seen it myself.
    Chairman Johnson. Senator Ayotte.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. Thank you, Chairman.
    I want to thank you, Mr. Secretary, for your leadership and 
service. You have a very important job.
    I wanted to follow up on what both Senator Heitkamp and 
Senator Tester talked about on the Northern Border. Actually, 
Senator Heitkamp and I introduced, and this Committee passed 
out, a bill called the Northern Border Security Review Act. 
Essentially, what it would do is require an assessment of the 
current state of the border between Canada and the United 
States--and, to me, that makes sense as we look at resources. 
Is that something you think would be sensible?
    Secretary Johnson. It sounds right. Yes, ma'am.
    Senator Ayotte. Great. Thank you. I hope we can get that to 
the floor and I appreciate the Chairman getting that out. 
Hopefully, we can get that passed and get that to you.
    I also wanted to follow up on the questions that Senator 
Portman asked you about, obviously, the heroin interdiction at 
the Southern Border. I think it would be really helpful for us 
to understand sort of what has been the trend, because, in 
other Committees that I serve on, the testimony that I have 
heard is that we have seen a significant increase in production 
of heroin. So, I think it would be helpful for us to 
understand, as we look at what is happening on the Southern 
Border, how much is being interdicted and how much is coming 
through. In New Hampshire, the price on our streets is so cheap 
right now, and anything we can do, obviously, to drive up that 
price and to stop its flow is going to help what our first 
responders are doing on our streets to keep it away, and, 
obviously, to protect people.
    So, I wanted to ask you about the issue of fentanyl. Are we 
seeing an increase in fentanyl, which, of course, could be as 
much as 50 times more powerful than heroin--and it is a huge 
driver of what is killing people in New Hampshire and in the 
increase in our drug deaths.
    Secretary Johnson. I have the numbers here for heroin and 
heroin seizures, which have increased in 2015 over 2014. 
Statistics on fentanyl--I do not have offhand, but I can 
certainly get you that, ma'am.
    Senator Ayotte. Well, that would be excellent, because we 
have seen that combination--as someone I know who is in 
recovery--an amazing young man--described fentanyl as a serial 
killer because it is so much more powerful than heroin. So, I 
think it would be helpful for us to understand the fentanyl 
numbers, too, and whether those have increased along with 
heroin.
    I also wanted to follow up--I understand you just came back 
from a trip to Turkey----
    Secretary Johnson. Yes.
    Senator Ayotte [continuing]. And the issue of, first of 
all, the foreign fighter flow--to get your perspective on where 
we stand with the foreign fighter flow with regard to the 
Islamic State of Iraq and Syria (ISIS).
    And, in addition to that, recently before the Senate Armed 
Services Committee we had General Philip Breedlove, who I am 
sure you know--who is the European Commander--come before our 
Committee. I asked him about the refugee issue, and he told me 
that he is concerned that, in fact, criminality, terrorists, 
and returning foreign fighters are, clearly, a daily part of 
the refugee flow now.
    So, could you give me an update on your trip to Turkey and 
what you see happening with the fighter flow issue? How much is 
this, from a homeland security perspective, something that you 
are focusing on?
    Secretary Johnson. Yes. All good questions. I was in Turkey 
last week. I met with my counterpart, the Minister of Interior, 
there and we are making good progress, in terms of information 
sharing with the Turkish government. That is something that 
they are interested in doing with us and we are interested in 
doing with them. I signed several memorandums of understanding 
(MOUs) with that government to enhance information sharing--
both with respect to cargo inspection and people. And, we 
agreed to further discussions, in further areas, that I would 
be happy to brief you on in private. Overall, I think it was a 
very, very productive visit.
    We know from prior experiences that members of ISIL have 
left that area posing as refugees. That is a fact. So, I agree 
with General Breedlove's comments insofar as the worldwide 
refugee problem is something that poses a risk to us, in terms 
of what ISIL is trying to do.
    In terms of refugee resettlement in the United States, as I 
am sure you know, we have a very thorough multi-layered 
process. Before somebody is resettled, it takes something like 
18 to 24 months to complete for each refugee--and we have 
recently added further enhancements to the security of that 
process--just in the last several months--which will most 
likely add to delays, but we are also adding resources and 
personnel to satisfy our undertaking. But, we do have a very 
thorough process right now and we are adding more on, and we 
are always looking at whether more is necessary, in terms of 
our own U.S. refugee vetting.
    Senator Ayotte. Do you think that process can eliminate all 
risk?
    Secretary Johnson. The way I like to say it is that in a 
free, open, and democratic society that has a tradition of 
humanitarian goodwill, obligations when it comes to refugees, 
and an immigration heritage, we should welcome, with open arms, 
people who are in need and who are vulnerable--but we should do 
so carefully. And, I think the American people understand that 
in a free and open society, we cannot erase all risk. But, we 
should do our best at security--while maintaining our values.
    Senator Ayotte. Thank you, Secretary Johnson. To me--I 
fully support ensuring that we are a vibrant country of 
immigrants, something that I have been supportive of--including 
productive immigration reform and border security. But, I 
respectfully disagree with you on the risk factor, as I hear 
what our intelligence officials have been saying, with the 
risks and a strategy from ISIS to actually try to purposely 
infiltrate the flow of refugees.
    I want to thank you for your work and thank all of those 
that serve underneath you. I mean, we all travel so much and 
are very appreciative of those who serve underneath you, 
because they do very important work for our Nation.
    Secretary Johnson. Thank you.
    Chairman Johnson. Senator Ernst.

               OPENING STATEMENT OF SENATOR ERNST

    Senator Ernst. Thank you, Mr. Chairman.
    Thank you, Secretary, for being with us today, and I just 
want to mention that I do certainly appreciate the work that 
you and your employees have done, as well. I think you provide 
such a valuable service to all of us.
    I would like to take a minute just to discuss an issue that 
has arisen in Iowa, and it is affecting many of our levee 
districts across the Missouri River, as it relates to 
accreditation under the National Flood Insurance Program 
(NFIP). And, as you may know, the accreditation and 
certification of a river levee is very desirable for 
communities and property near the river, because it ultimately 
affects the affordability of their flood insurance rates.
    And, I understand that FEMA's involvement in this process 
is to review and accept certification provided by a party that 
is seeking accreditation on a levee on a flood insurance rate 
map, providing 100-year protection. But, the cost of the 
certification is really creating havoc for a number of these 
communities in my State.
    So, my questions on this are: first, in FEMA's eyes, how is 
a rural community with almost no tax base--in my particular 
area of Southwest Iowa, we have just a handful of families that 
live and farm in these levee districts and they are supposed to 
pay for--at a minimum--a million-dollar evaluation by a 
professional engineer. This is not good news for a number of 
these families, and I do not know how they can reasonably 
accomplish accreditation when it is so costly for these 
families. So, I am not sure if you have ideas on how these 
rural communities can pay for those.
    And, second, why is it that FEMA has different levee 
certification standards than the Army Corps of Engineers 
(USACE) when it comes to reviewing the effectiveness of a 
levee? And, I will stop right there and see if you have any 
thoughts on that, but there seems to be some inconsistency 
between FEMA and USACE. There is a memorandum from 2014 that 
lays out how they are supposed to work together, but, from what 
I understand from the exchanges of e-mails, this communication 
process is not happening or is not working.
    So, one, it is a big shock, the cost of levee 
certification, and your thoughts on that, please?
    Secretary Johnson. Senator, my overall view NFIP is that it 
should be solvent, but also affordable. I cannot comment 
specifically on the cost of certification and its 
affordability, particularly, with regard to the rural 
communities you spoke of in Iowa, but I am happy to look into 
that and get back to you, specifically, on your question.
    I do not have an explanation for you, in terms of the 
different methodology that may exist between FEMA and the Army 
Corps of Engineers, but I am happy to look into it.
    Senator Ernst. OK. I think that would be important, because 
it is not just in rural Iowa where this is happening. This is 
all across the United States. And flood mapping is a big deal. 
And, what we are running across in some of these areas, even, 
is what I have heard from some of my constituents--and I know 
this is true of other places, as well--that the cost of their 
flood insurance, their premiums--monthly premiums--are starting 
to edge up toward what their monthly home mortgage costs are. 
And, you have to remember that we have very economically 
challenged areas and it is all they can do to pay their 
mortgage--and then to double that with flood insurance costs--
some of them are simply walking away from their homes, and this 
is a very sad situation.
    So, if you could provide us information about that, it 
would be helpful, or if you could offer a way that we can do 
better and find alternatives for these families.
    Secretary Johnson. Yes.
    Senator Ernst. Next question. According to a recent article 
in Bloomberg, DHS suffered over 100 spills of classified 
information last year. While I understand that a spill is not 
quite the same thing as a leak, both forms of mishandling 
information in the Federal Government really do concern me. So, 
what are your feelings on this and what are we doing to address 
these types of situations?
    Secretary Johnson. My view is that DHS, given our 
cybersecurity mission, should be a model for other Federal 
agencies and departments. I am familiar with that article. I 
know that our cybersecurity experts and our Intelligence and 
Analysis Directorate are focused on addressing spills. My 
recollection is that the article was not accurate in all 
respects.
    Senator Ernst. OK.
    Secretary Johnson [continuing]. I would be happy to 
identify that for you.
    Senator Ernst. Yes. If you can clarify, that would be 
great.
    Secretary Johnson. OK.
    Senator Ernst. I appreciate it. No, I do appreciate it, and 
again, thank you for your very good work out there.
    Secretary Johnson. Thank you.
    Senator Ernst. And to all of your employees, as well.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator Ernst.
    I have been cranking through some numbers here.
    Secretary Johnson. OK.
    Chairman Johnson. I got your sheet on unaccompanied 
children.
    Secretary Johnson. Yes.
    Chairman Johnson. The big difference here is you are 
including all unaccompanied children, including from Mexico----
    Secretary Johnson. Yes.
    Chairman Johnson [continuing]. And I was talking about 
unaccompanied children from Central America, which is the big 
problem. So, let us just kind of step through this, because it 
is important. This affects your budget.
    Secretary Johnson. Yes.
    Chairman Johnson. In your budget, you are basically 
budgeting for 75,000 unaccompanied children from all sources, 
correct?
    Secretary Johnson. Yes.
    Chairman Johnson. If you take a look at 2014, again, the 
crisis year, correct?
    Secretary Johnson. Yes.
    Chairman Johnson. We can put the chart back up there. That 
was, in total, about 68,631 unaccompanied children. This is 
only for Central America. It just kind of gives you a--year to 
date, we are 10 percent above the 2014 numbers.
    Secretary Johnson. I am sorry, Mr. Chairman.
    Chairman Johnson. I am dealing with your numbers right now, 
which includes Mexicans.
    Secretary Johnson. 68,541 is what I have.
    Chairman Johnson. Right. Exactly.
    Secretary Johnson. OK.
    Chairman Johnson. For the entire year.
    Secretary Johnson. Yes.
    Chairman Johnson. Year to date, in 2016, we are at 23,553.
    Secretary Johnson. Yes.
    Chairman Johnson. Year to date, in 2014, was 21,403. So, if 
you include all unaccompanied children, we are up 10 percent, 
which would imply that we are going to be 10 percent over 
68,000. That is about 75,000. Now, that is including Mexican 
children, as well.
    Mexico is four times the population of Central America, and 
yet, Mexican unaccompanied children encompass somewhere between 
20 to 25 percent of the problem. So, that is why I isolate 
unaccompanied children from Central America--because we treat 
them differently. I am trying to figure out the best way to 
address this problem. What is the best way to reduce the flow? 
We have to take a look at the incentives, which, of course, you 
see Deferred Action on Childhood Arrivals (DACA) is one of 
them. The length of the adjudication process under the 
Feinstein Amendment is one of them. Another, is the fact that, 
when unaccompanied children from Central America get here, they 
are apprehended, they are processed, they are dispersed, and 
they basically stay, correct?
    So, again, the point I am trying to make is I think there 
ought to be alarm bells ringing right now, because, in the 
first 4 months, with just unaccompanied children from Central 
America, we are up 49 percent over the first 4 months in 2014--
when it was a crisis. We are up 49 percent, which would imply, 
again, when you run the numbers out, about 77,000 unaccompanied 
children from just Central America, if that will hold.
    Now, I see February's numbers. I have backed out my 
assumption because it has been very consistent. We have had 
about a thousand unaccompanied children from Mexico the first 4 
months. So, if I assume it's 1,000 for February, I can come up 
with a number and we are still 28.5 percent ahead of 2014, 
which would imply 66,000 unaccompanied children, from just 
Central America, compared to 51,000.
    So, again, my point being is, in the first 4 or 5 months of 
data, alarm bells ought to be ringing. The crisis has not been 
averted. It is not getting better. It is getting worse, even 
over 2014. Yes, it came down in 2015, but the early indications 
of the first 4 or 5 months of 2016 is it is going to be worse 
than 2014--and that is my point. It is obviously going to 
affect your budget.
    And, I think the reason it is not a crisis--and here is 
what concerns me--is, again, because of the great efforts of 
CBP and your organization, we have gotten very good--very 
humane--at processing and dispersing. And, as I said earlier, 
in the hearing that Senator Portman had on the situation in 
Columbus, this is not a really humane situation when we 
disperse and we just kind of forget about them.
    So, again, are you acknowledging the fact that this is 
still an enormous problem and we are not----
    Secretary Johnson. Yes, absolutely.
    Chairman Johnson [continuing]. From my standpoint, 
addressing the root cause--and our public policy ought to be: 
what can we do to stem the flow? Not to figure out how we can 
more efficiently process and disperse, but how do we address 
the incentives that are incentivizing people to come here?
    Secretary Johnson. Yes--a couple of things--and I hope you 
do not mind if I exceed the 36 seconds.
    Chairman Johnson. Sure. We are here by ourselves.
    Secretary Johnson. Correct.
    Chairman Johnson. There is no clock.
    Secretary Johnson. First of all, nobody in DHS, CBP, ICE, 
or HHS is feeling as if a crisis has been averted. Whether it 
is 75,000, 68,000, or 39,000, that is a whole lot of kids and 
that creates a real problem for us. It overwhelms my resources, 
HHS's resources, and taxes a lot of other resources.
    I do think that the comparison to 2014 is imperfect in that 
there is a certain trend that existed in 2014 that does not 
exist in 2016. The numbers in January and February of 2014 were 
considerably higher than the numbers in January and February of 
2016. Now, having said that, much of this is seasonal, so I 
think we have to assume that March is going to be higher than 
February, and April is probably going to be higher than March. 
And May, June, and July will probably do what they typically 
do. So, we have to assume that we are not going to see numbers 
as low as 3,100 for the rest of this fiscal year, which is why 
our budget request assumes 75,000 UACs in 2016.
    Now, I agree with you that you can put a lot of border 
security on this effort to deal with kids who are not seeking 
to avoid capture, and there is only so much you can do by way 
of border security and immigration enforcement. However, I do 
believe that it is important that people in Central America see 
that people are being repatriated back to Central America, 
which is why we have been very visible about our efforts in 
recent months.
    And I do agree with you, Chairman, that the underlying 
factors have to be addressed. I am pleased that Congress 
appropriated $750 million for Central America and I am 
impressed with the new President of Guatemala, Jimmy Morales. I 
hope you had a chance to meet him when he was here a couple of 
weeks ago. He is a dynamic leader in Guatemala and I am hoping, 
and I have some optimism for that country, given the new 
leadership there.
    But, we have to do more and we are seeking to do more to 
help those in Central America with their border security, 
through training programs and the like--through vetting 
programs. We have to do more in Central America, which is the 
heart of the problem.
    Just in my 26 months in office, I have learned that, as 
long as you have powerful underlying push factors--poverty, 
violence, drought, and the like--there is only so much border 
security that you can accomplish--whether it is more personnel 
or more walls--to deal with people who are motivated to leave 
their homes and travel thousands of miles to come here.
    Chairman Johnson. But, we create an awful lot of pull 
factors here, and that is the whole purpose of that chart. DACA 
was a pretty tremendous pull factor. The fact that we grant 
lengthy adjudication processes, and they learn the term, 
``credible fear,'' and, all of a sudden, we are not sending 
them back.
    Secretary Chertoff, when we had a flow--what, in 2008?--in 
2006, from Brazil, started sending people back immediately. The 
flow stopped.
    We were in Guatemala and Honduras. We met with the 
President-elect, which he was at that point in time. I also met 
with the President when he just came here--what was it last 
week or 2 weeks ago? We actually saw a repatriation of illegal 
immigrants from Guatemala when they returned to the airport. 
And, during the reorientation speech, and this is a paraphrase 
translated to me, the Guatemalans were told, quote, ``It does 
not matter how poor, how rich, big, or small your country is. 
This is still your motherland. Remember that you have to love 
your country. Please consider that before attempting to leave 
for the United States.''
    The room of about 136 Guatemalans, who had just been 
repatriated, erupted into applause. The reprocessing center was 
very modern. We had non-governmental agencies (NGOs) ready to 
help them. There was a phone bank. There was one minor. He was 
separated from the group of adults and with their form of child 
protective services (CPS).
    So, we talk about these push factors. The President of 
Honduras asked us, ``please, fix the ambiguity in your laws 
that are encouraging our citizens to leave our country.'' Let 
us face it. This is the United States of America. I do not know 
how many people from around the world want to come here, but 
there are literally hundreds of millions--if not billions--of 
people who would like to be in America, but we cannot accept 
them all. It has to be a legal process, and we have to look at 
the incentives we create in our own laws that are the pull 
factors, because there are push factors all over the world and 
we really have to deal with what we can actually deal with 
here.
    Those countries are beautiful countries, but as long as we 
have this insatiable demand for drugs, the farmers in Central 
America will make 50 times what they can make on normal crops 
by selling poppies. And, they do not have to deliver it 
anywhere. They come pick it up.
    And, Senator Carper was saying the same thing. From our 14 
hearings on border security and our 100-page report, the 
conclusion I came to is that the root cause, among many, of our 
unsecured border is our insatiable demand for drugs. It is 
causing so many other problems, as well.
    So, that is my only point, let us look at this very clear-
eyed. Let us acknowledge the reality. Let us take a look at 
policies that we have enacted, over multiple administrations, 
and just acknowledge the fact that these things are not working 
and we really have to look at what we can do ourselves. We have 
to state, from my standpoint, what should be the goal of our 
policies: what we can do to stem the flow, as opposed to what 
we are doing right now in your budget--and again, you have done 
a very good job with great humanity. What DHS did in the throes 
of that initial crisis in 2014 was pretty extraordinary. But, 
that is not the solution, bottom line.
    You can comment. I have a couple of questions as long as--
--
    Secretary Johnson. Well, let me make something----
    Chairman Johnson. Sure.
    Secretary Johnson. Let me say a couple of things. First, I 
agree with what Secretary Chertoff told you, because he told me 
the same thing about the situation in 2006. And, I share his 
view that illegal migration is very market sensitive. It reacts 
to information in the marketplace about what is going on and 
what you can expect to happen after you pay a coyote $6,000 and 
you have migrated all the way up here.
    And, so, that is why, to the consternation and unhappiness 
of many, I have been very public about our enforcement efforts. 
Our enforcement efforts, just this fiscal year--the first 5 
months of this fiscal year--with regard to Central America--
after all of these people go through the ``credible fear'' 
process, having their claim heard in Immigration Court, and 
having the appeals run and so forth--just this fiscal year, we 
have sent back 28,000 people to Central America. Nobody is 
sitting on their hands. We have sent back 28,000 people to 
Central America.
    Chairman Johnson. Let me ask, out of how many that----
    Secretary Johnson. On average, 14 flights a week. So, 
people are being sent back routinely.
    Chairman Johnson. But, out of how many that have come? 
Again, we are talking about unaccompanied children. You are 
talking about almost all adults----
    Secretary Johnson. Most of them are adults.
    Chairman Johnson. So, what is the total that have come in? 
The 28,000 is what percent of the total?
    Secretary Johnson. The total number who have come in just 
this fiscal year, sure, exceeds that 28,000 number, because a 
lot of them go through the litigation of their asylum claims. 
As you know, that takes months and months. The Department of 
Justice (DOJ) has a limited number of immigration judges to 
hear these claims. But, once we have gone through that process, 
I am sending people back as quickly as I can.
    Chairman Johnson. And, listen, I understand the political 
heat. You have done that and I appreciate that fact. But, 
again, do you know the total number that have come in--what the 
estimate is?
    Secretary Johnson. Since when?
    Chairman Johnson. Just for the year. I mean, if you sent 
back--I mean, in the same period. If you are saying you have 
sent back 28,000, that is out of how many that came into this 
country illegally that we know of?
    Secretary Johnson. Well, so far this fiscal year, there 
have been 152,000 apprehensions on our Southern Border--152,000 
apprehensions. That is not----
    Chairman Johnson. And, again, there is a dispute over 
how many get by without us knowing about it, so, I mean, it is 
still----
    Secretary Johnson. That is one of the reasons why I think 
you and I are both interested in developing better border 
metrics.
    Chairman Johnson. Correct, and I appreciate that.
    Secretary Johnson. Right. So, it is a larger number, 
without a doubt. And, presumably, all of these people have--are 
in deportation proceedings at one stage of the process or 
another, but, as you know, it is a time consuming process. But, 
we are, in fact, routinely sending hundreds and thousands of 
people back to Central America and I have kind of made a big 
deal about that.
    Chairman Johnson. Right. But, again, I think one of the 
reasons we only have a thousand Mexican unaccompanied children 
is because we can send them back right away, and so there is 
just--it is just easier to do it and so there is less 
incentive. But, let me turn it over to Senator Carper----
    Secretary Johnson. Mexico is a different--it is a different 
situation, too. It is not quite the same situation.
    Chairman Johnson. No, it is all complex. Senator Carper.
    Senator Carper. Finish that sentence. Just follow up and 
just finish your sentence about how Mexico is a different 
situation--just briefly, please.
    Secretary Johnson. Well, the economy is better, as you 
know, Senator. The push factors are not the same. They are 
different. Mexico is a much different country from, say, 15 
years ago, when the numbers of illegal migrants coming from 
there were far, far greater. And, so, I think it is notable 
that, though our economy is improving, the number of 
apprehensions on our Southern Border is a fraction of what it 
used to be--thanks to the investments we and the Congress have 
made in border security over the last 15 years.
    Could we do better? Absolutely. Are we concerned about 
another spike? We have to prepare for it and we are concerned 
about that, absolutely. Nobody is popping champagne corks. Just 
yesterday, I had a meeting with the Secretary of HHS on this 
problem, to try to anticipate what could be the worst again.
    But, as I said, I do not think 2014 is a perfect 
comparison. I think the trend lines are a little different. 
But, still, we can assume we are going to see seasonal 
migration trending up again.
    Senator Carper. OK.
    Secretary Johnson. That is absolutely the case.
    Senator Carper. Thank you. The other thing that is 
different with Mexico, they have a--I am tempted to call it a 
vibrant middle class. They have a middle class, today, that 
they did not have 20 years ago, and part of that, I think, 
could be attributable to the North American Free Trade 
Agreement (NAFTA) and other things, as well. They are a strong 
trading partner with us. They still have--we have, God knows, 
we still have problems with rule of law in this country, and 
they certainly have their challenges, in Mexico, in that 
regard.
    But, the folks that are coming out of Guatemala, Honduras, 
and El Salvador--the Secretary has been down there and the 
Chairman and I have been down there--if we lived down in those 
countries and were trying to raise our families, we might want 
to try to get out, too--or at least get them to a safer place.
    OK. Cybersecurity. I know we talked a little bit about 
that. Over the last several years, we have talked about it a 
lot, and we have actually done very good work in an earlier 
Congress with Tom Coburn passing legislation that made real the 
Cyber Ops Center, well known as the National Cybersecurity 
Communications Integration Center (NCCIC), which provided 
greater hiring flexibility and enhanced your ability to hire 
the kind of cyber warriors that you need and to retain them.
    And, the other piece is to try to reconcile the difference 
between the responsibilities of the Department of Homeland 
Security and the Office of Management and Budget (OMB), with 
respect to protecting our ``dot-gov'' domain and doing that in 
a thoughtful way. Also, to move away from some kind of, like, 
paperwork drill system to actually a real-time system, where we 
actually are able to respond on a real-time basis--not, like, a 
year after an intrusion.
    But, we are happy with all of that. We have provided 
funding, as you know, for all of that. And you now have had an 
opportunity to begin hiring cyber warriors. How is it going?
    Secretary Johnson. First of all, thank you to both of you 
for taking on this complex subject and pushing out a really 
good bill last year. Thank you also for the cyber legislation 
we got in 2014 that gives us additional hiring authorities.
    We are competing in a tough marketplace against the private 
sector, which is in a position to offer a lot more money. 
Suzanne Spaulding and her people are making very aggressive 
efforts to, first, implement the 2014 legislation you passed, 
and, second, in the interim, to do a lot of things in terms of 
recruitment, expediting the hiring process, and so forth. We 
need more cyber talent, without a doubt, in DHS and in the 
Federal Government, and we are not where we should be right 
now. That is without a doubt.
    Senator Carper. Let me just interrupt you. Phyllis Schneck, 
who is one of your top cyber people, she came out of the 
private sector, went to Georgia Tech----
    Secretary Johnson. Yes.
    Senator Carper [continuing]. But came out of the private 
sector. I am sure she was very well compensated, and she gave 
it up in order to come to work at the Department of Homeland 
Security.
    Secretary Johnson. I am familiar with the phenomenon, yes.
    Senator Carper. Yes. And the reason why, when I talked to 
her about it, was that she felt an obligation, or a desire, to 
give back to her country. And, it is all well and good that 
cyber warriors work for other companies or businesses and so 
forth, but, in this case, there is something to be said for 
appealing to people's sense of patriotism--and I think that is 
one of the things that draws her. And, that is a calling card, 
if you will, that we can use--and I am sure that we do.
    Let me just follow up by saying, I think there is a 30 
percent increase in the President's proposed budget for next 
year for the Department's cybersecurity programs. Some of these 
monies will be used to help expand Einstein so that, basically, 
all Federal agencies are using not just Einstein 1 and 2, but 
also Einstein 3, intrusion detection system, across the board--
as well as to bring in the new personnel that we talked about 
for your cyber ops.
    How does the budget support implementation of the 
cybersecurity information sharing legislation that was enacted 
last year? We worked on it together, and got great support from 
the Administration, from the President. But, how does the 
budget support implementation of our information sharing bill 
that was enacted and signed into law last December?
    Secretary Johnson. The short answer is through further 
investments in maintaining our technology and building upon 
what we have. Further investments in the Einstein system. 
Further investments in the Continuous Diagnostics and 
Mitigation (CDM). The legislation specifically authorizes DHS 
to go into other Federal departments and agencies to detect, to 
monitor, and to block intrusions. It is a good thing that 
Congress gave us the authority to do that, because we were 
finding considerable uncertainty to do that in departments and 
agencies.
    One of my top priorities for Federal civilian ``dot-gov'' 
cybersecurity while I am still in office is to have E3A in 
place to block intrusions across our entire Federal civilian 
system before the end of this year--and I think that is one of 
the legal mandates in the bill. But, as I have said, Einstein 
is also a platform for building additional capabilities, so 
that we are not just going after known intrusions, but also 
suspected intrusions. There are pilots out there now to do 
that, and I think we need to build on that for the future.
    So, the funding for additional technology implements the 
legislation that was passed last year.
    Senator Carper. All right. Just a quick question to follow 
up on encryption, if I could. We hear a lot in the media about 
Apple and the disagreement that they have with the FBI. It is a 
serious matter.
    Secretary Johnson. Yes.
    Senator Carper. And, we have a mass killing in San 
Bernadino, as we know. I think 14 people were killed by a 
couple who were radicalized. And, there is a cell phone, an 
Apple cell phone, that is in question that I think was not 
owned by the killers, the perpetrators of the violence, but is 
owned by the county where the husband had actually worked.
    We have a role to play here. Some of our colleagues in the 
House and in the Senate are working on legislation. The 
Administration has spelled out their own views. I think there 
are actually some people who do not always speak in one mindset 
on this issue within the Administration. It is a tough issue.
    But, as we consider legislation on this matter, do you have 
any advice for us?
    Secretary Johnson. My advice is to ensure that you have the 
views of all of the stakeholders, from the tech sector, from 
the intelligence community (IC), and from the law enforcement 
community--Federal and State. One person who comes to mind, for 
example, is Cyrus Vance, who is the Manhattan District Attorney 
(DA). Cy, who is a friend of mine, has been very vocal about 
the encryption issue from the local law enforcement level and 
he reminds us that basically any crime that involves 
communications--not just Federal crimes--is harder to detect 
because of the encryption issue.
    I do believe that there needs to be a readjustment in the 
pendulum. I think that, in response to the plans of the 
marketplace, the tech sector has gone a long way toward 
encryption. But, it has, in fact, created a situation where 
crime and potential terrorist plottings are harder to detect.
    So, I and others do agree that there needs to be a 
recalibration. I, of course, support the government's position 
in the case involving Apple in California. And, so, if we are 
to grapple with this problem--I think that smart people can 
solve the problem, but we have to ensure that all of the 
stakeholders are represented in that discussion.
    Senator Carper. All right. Well, we will continue to 
welcome your counsel on this.
    One last one, Mr. Chairman, if I could. The Chairman and I, 
as well as others on our Committee--our staffs--have worked a 
whole lot to try to put together legislative language 
authorizing some of the initiatives that comprise, in their 
entirety, your ``Unity of Effort.'' Why do you want to leave 
some of your reforms in place for the next Secretary? And will 
these reforms help, in some way, to get off of the Government 
Accountability Office's (GAO's) High-Risk List and be able to 
do the work more effectively?
    Secretary Johnson. Well, first of all, through our very 
able Under Secretary, who is sitting right there----
    Senator Carper. What is his name?
    Secretary Johnson. Russ Deyo.
    Senator Carper. I have heard of him.
    Secretary Johnson. He is a former client of mine from my 
private practice days. And through his very able Chief 
Financial Officer (CFO) and our Deputy Secretary, we have gone 
a long way in working with GAO to get off of the High-Risk 
List.
    I believe very strongly that a lot of the things we are 
doing to remove the stovepipes in DHS and have a more strategic 
approach to budget making, acquisition, and so forth should be 
institutionalized. It is not just something that should exist 
while I am in office. I think it will make the Department a 
better, more effective place for homeland security if we move 
in the direction of more centralized, more strategic approaches 
to our homeland security mission. We have been stovepiped for 
far too long and we need to move toward a model more like the 
Department of Defense, where you have joint duty, joint task 
forces, and the like.
    There are provisions in the current law that create some 
limitations on our ability to do that, and I am sure our staffs 
have spoken to you about that in the current Homeland Security 
Act (HSA). And, so, the authorization of our ``Unity of Effort 
Initiatives'' is something I very, very much support, which 
includes reforming and restructuring NPPD. I have seen the 
legislative language that I know your Committee is working 
through now on a number of these things, and I support that, 
and I support the good work there.
    Senator Carper. Good. And I think it is fair to say that we 
support what you are trying to do, as well. Thank you. Thank 
you so much for joining us today.
    Chairman Johnson. Thank you, Senator Carper.
    I think Senator Sasse may be coming. I still have some 
questions, as well, so let us kind of step through them.
    By the way, I do appreciate you working with me on a border 
metrics bill and the fact that you recognize that, if we are 
going to ever secure the borders, we need to understand the 
situation. So, I hope you will continue to work with us. I 
would like to get that actually passed and certainly support 
efforts that you are trying to do within your Department.
    Let us talk a little about critical infrastructure. 
Earlier, I talked about Ted Koppel's book, ``Lights Out.'' We 
held a hearing on this. We had Dr. Richard Garwin here. We had 
James Woolsey. The Electromagnetic Pulses (EMP) Commission in 
2008 tasked your Department with a number of, I guess, let us 
call them quick fixes--and GAO basically reported that you have 
not done a whole lot on that.
    We have witnessed the unsolved attack on an electrical 
substation at Metcalf. You read about the cyber attack on the 
power grid system in Ukraine. You take a look at the potential 
of solar storms with geomagnetic disturbances. You take a look 
at the potential, I mean, obviously, let us look at North 
Korea, with their ballistic missile technology and nuclear 
capabilities. I am concerned about Iran. There are reports that 
they have test fired Scud missiles off of ships--off of shore. 
These threats are real.
    And, I guess, can you just kind of talk about, across the 
board, critical infrastructure--I would say, particularly, the 
electrical grid, which is the number 1. When the electricity 
goes down, the lights go out, and we are in a world of hurt. 
And, we have these large power transformers that Dr. Richard 
Garwin, who, by the way, Secretary Moniz, when I was 
questioning him about this in the Foreign Relations Committee 
said--again, Dr. Richard Garwin, a real national treasure. 
Enrico Fermi referred to him as one of the truest geniuses he 
had ever met.
    So, can you just speak about what the Department has done, 
in terms of the charge you were given based on the 2008 EMP 
Commission on critical infrastructure, particularly, the 
electrical grid, but expand it beyond just EMP--Ground-based 
Midcourse Defense (GMD), cyber attacks, and physical terrorist 
attacks. Where are we at on these?
    Secretary Johnson. Better than we were, but there is more 
to do. I do not agree with everything in Ted Koppel's book, but 
I think he was right to put a spotlight on the issue.
    Since the earthquake in Japan in 2012, there were a lot of 
lessons learned for the U.S. Government and the private sector 
critical infrastructure utilities here. And since that, which 
was sort of a seminal event, we have done a lot more partnering 
with the private sector--with critical infrastructure--to work 
with them, sharing best practices and sharing information about 
the potential for a cyber attack on power grids. And, we do 
exercises now with them. So, we are in a better place than we 
were.
    There was a DHS team, along with an interagency team, in 
the Ukraine recently. That was a cyber attack that led to a 
power failure. We are not, at this point, in a position to 
attribute it to any particular source, but that was a cyber 
attack.
    Chairman Johnson. And highly sophisticated, correct?
    Secretary Johnson. And, it would appear to have been fairly 
sophisticated, yes. And, that should be, and must be, a wake-up 
call for those who have not already been awakened by this 
problem and this risk.
    So, we are working with critical infrastructure all of the 
time. I have spoken to CEOs of utilities about this problem and 
they are seizing on this issue, as well. But, there is clearly 
more to do, Chairman.
    Chairman Johnson. What is the lead group within your 
Department looking at this?
    Secretary Johnson. We have an Assistant Secretary for 
Infrastructure Protection who is part of this effort, but also 
our cybersecurity efforts, as well.
    Chairman Johnson. OK. I want to work very closely with you 
over the next few months to do whatever we can, legislatively, 
to work with your Department. This is incredibly important.
    I have more questions, but I will turn it over to Senator 
McCain.

              OPENING STATEMENT OF SENATOR MCCAIN

    Senator McCain. Thank you very much.
    Welcome back, Secretary Johnson. I want to bring up a 
couple of issues really quickly.
    We are terribly short on staffing at our ports of entry on 
our Southern Border. We passed legislation which would expedite 
veterans being hired. We have done a number of things. But, we 
are still--for example, at the Nogales-Mariposa port of entry, 
we are 20 percent understaffed--well over 100 agents short. So, 
you see these lanes, these vacant lanes, and traffic stacked up 
behind it, simply because we do not have the personnel.
    It is my understanding it takes about 18 months--and we did 
pass legislation that would expedite veterans, former military. 
But, the fact is that we are still not making up for that 
shortfall, and I am of the view that we need to have some kind 
of incentive pay or hazardous-duty pay at the ports of entry 
that experience high traffic flows. I am very interested in 
your view on that.
    Secretary Johnson. First, Senator, we are not where we need 
to be. No argument from me, there. CBP needs to, and is, making 
aggressive efforts to hire, to bring on people faster, and to 
get them through the polygraph exams. I fully support the 
hiring of veterans and making it easier to hire veterans. I 
understand that you are interested in legislation that deals 
with pay in these areas and I am happy to look at that with 
you, sir.
    Senator McCain. It is a very tough environment along all of 
our Southern Border, but also, I would argue, in Arizona, it 
gets particularly warm, and I can understand how tough a duty 
it is. And, so, I think that, just as we in the military 
provide incentive pay for hardship positions, I hope that you 
would look at that. And, I will be introducing legislation on 
it, because it is just not sufficient, as you know, when we are 
100--well over 100--Customs agents short. There is either 
something wrong with the level of staffing required or 
something is wrong with the level of personnel.
    I know that you know that there is an epidemic of 
manufactured heroin, and the deaths from manufactured heroin 
overdoses have been described by some Governors, including the 
Governor of New Hampshire, as a, quote, ``epidemic.'' The 
heroin that is being transported across the border in Arizona--
seizures have increased 223 percent as the drug cartels, 
obviously, transport and distribute the drug to the United 
States.
    I think it is particularly interesting, now, with the 
passing of Nancy Reagan--the ``Just Say No'' to drugs campaign 
was something that I think we ought to do a lot more of.
    But, one, do you agree that heroin drug overdose deaths are 
skyrocketing?
    Secretary Johnson. Yes.
    Senator McCain. That is just the facts that we get from the 
Governors. And, is not most of this manufactured heroin coming 
across through the ports of entry, rather than being smuggled 
across the border areas, for several reasons? And, what do you 
propose that we need to combat this problem, which some 
Governors have described as a, quote, ``epidemic''?
    Secretary Johnson. I agree that most of the heroin that is 
seized is seized at ports of entry on our Southern Border, as 
opposed to maritime, for example. That is what the facts and 
the statistics show.
    We have seen greater levels of seizures by Customs and 
Border Protection and by HSI. We have created a national task 
force with the Department of Justice to deal with the heroin 
epidemic, specifically. Part of the joint task force missions 
that I created 2 years ago--part of our JTF missions, which is 
modeled, by the way, after the structure we have in Arizona--is 
the illegal narcotics problem. It is not just migrants--illegal 
migrants. I want our JTFs to be focused on narcotics, as well.
    We are seeing an increase. It is alarming. And, I think 
this needs to be a National Government effort. Within DHS, we 
have ICE, HSI, and CBP focused on this problem. And, we are 
seeing seizures at higher levels, without a doubt.
    Senator McCain. But it also seems that the problem is 
increasing--according to these Governors--rather than 
decreasing. And, I agree, fundamentally. I am in total 
agreement--it is supply and demand. But, it seems to me that, 
despite our increase in interdiction, the problem is growing 
worse. Would you agree with that?
    Secretary Johnson. Yes, sir.
    Senator McCain. Have you got any ideas?
    Secretary Johnson. I think we need more resources at the 
Federal Government level, not just DHS, but DOJ and the Drug 
Enforcement Administration (DEA), and a coordinated, sustained 
effort to deal with this problem.
    Senator McCain. I hope that this Committee and the Congress 
can get some recommendations from you, because, frankly, I have 
not seen anything quite like this, when I traveled to New 
Hampshire and heard the Governor of New Hampshire say it is an 
epidemic in her State--and throughout the Midwest, as well.
    Chairman Johnson. Yes.
    Senator McCain. And, maybe also some time we ought to talk 
about demand--but nobody seems to want to discuss that aspect 
of it, either, and I know that is disappointing to you.
    Finally, on the children showing up at the border, is one 
of the answers increasing our embassy and consulate 
capabilities in those three countries--El Salvador, Nicaragua, 
and Guatemala--so that they can go there, rather than showing 
up on our border?
    Secretary Johnson. Yes, sir. I agree with that.
    Senator McCain. I thank you for the good work that you do, 
Mr. Secretary. We have some spirited discussions from time to 
time, but I appreciate the work that you are doing.
    Maybe, finally, as Nancy Reagan inaugurated, maybe we ought 
to be talking a little bit more about trying to address the 
demand side of this problem, rather than blaming it all on the 
Mexican cartels, who I am glad to blame it on--but there is a 
demand. Do you agree?
    Secretary Johnson. I agree, yes. You have to deal with the 
demand and the supply.
    Senator McCain. Thank you, Mr. Secretary.
    Chairman Johnson. Thank you, Senator McCain.
    By the way, we mentioned earlier that, I think, the 
evaluation I have come to in this Committee is that the root 
cause of our unsecured border literally is our insatiable 
demand for drugs--and so that is an important component. We are 
working. We are trying to work on a piece of legislation to 
address the consulates--to address that.
    But, here is an idea in terms of interdicting drugs at the 
border through ports of entry. We held a hearing--and I know 
you are busy with the Armed Services Committee--an incredibly 
interesting hearing. It was on canine units and it really 
spawned--the red teams and the failure rates, because it is 
difficult to detect these things. I went to the University of 
Pennsylvania, where they have a pretty groundbreaking canine 
training unit. Unbelievable capabilities. In the hearing, 
certainly, we saw we have not really increased the number of 
canine units--certainly not within DHS.
    I wanted your evaluation. In the layered approach to 
airport security--this is for bomb sniffing, this is for, 
potentially, drug sniffing, and all of those issues--do you 
think it is good to explore the efficacy and maybe the 
expansion of canine units throughout your different missions--
whether it is drug interdiction or whether it is trying to, 
potentially, sniff out bombs in airports--that type of thing. I 
am very intrigued by it.
    Secretary Johnson. There is actually no better technology 
than a dog's nose for detecting certain types of explosives and 
prohibited items. And, just in the last 2 years, I have seen us 
expand the use of canines at the last point of departure 
airports and domestic airports to look for prohibited items in 
airports and in and around airplanes. So, I do believe in 
canine use. It is very effective--in a number of our missions--
not just aviation security.
    Chairman Johnson. But, we have not really increased the 
numbers. I mean, is that something that you would want to look 
at increasing--I think it is about 2,500 units, in total, 
within DHS. I think it was 900 in TSA--or 1,000 in TSA. It has 
been pretty flat. Do you think it is so effective that we 
should be looking at expanding that?
    Secretary Johnson. I think it is worth looking at. I 
understand you had a hearing exclusively devoted to this not 
too long ago. Canines are very effective, and one of the things 
that I was fascinated by when I was in Turkey last week, is 
that they are not as opposed to the use of canines, there, as 
one might expect them to be. So, they are embracing this, too. 
So, I think it is worth looking at, yes.
    Chairman Johnson. Yes. Well, we will work together on that.
    The final thing I will just talk about is what Senator 
Carper was talking about: personnel in cyber. Happy to work 
with you there, in terms of what we need to do. Is it, trying 
to attract people from the private sector to take a 2-year 
sabbatical and come here--whatever imaginative program we can 
use to attract those individuals. I have stated, repeatedly, 
that I am very impressed with the individuals, like yourself, 
like Mr. Deyo, and really, like your entire team here--by the 
quality of the Federal workforce. These people are patriots. 
They take their mission of keeping this Nation safe seriously, 
but they also understand the constraints. I am a private sector 
guy. I know what the private sector will pay for talent and you 
are constrained there.
    So, we are going to have to put our heads together and 
figure out, what we need to do so that your Department is 
staffed with the best and the brightest. There are plenty of 
patriots in America that will do it and will do it at a really 
great financial sacrifice, so let us try and break down 
whatever barriers we create, bureaucratically, to resource you.
    Secretary Johnson. We have terrific career people, but I 
agree with what Tom said, which is that we ought to appeal to 
people's sense of patriotism, to, ``Hey, how about spending a 
couple of years serving your country and working for the 
government in cybersecurity, which will better enable you to 
get that terrific job later on in the financial sector, in the 
private sector, or with some terrific cybersecurity firm in 
Silicon Valley.'' So, we ought to appeal to people's sense of 
patriotism.
    Chairman Johnson. General Electric (GE) has a very 
imaginative marketing advertising campaign out right now trying 
to make it really attractive to not go into these apps, but 
actually to go in and figure out how to make an economy run 
properly with informational technology. And, we can, maybe, do 
something similar to that.
    But, again, we want to work with you, in terms of what 
Senator McCain was talking about, with consulates, so that 
refugees and asylum-seekers can do that within Central America, 
rather than make the dangerous journey.
    We want to work with you, in terms of reducing our 
insatiable demand for drugs. The passing of Nancy Reagan is an 
important reminder. That campaign actually worked. We have been 
very effective at reducing the demand for tobacco. We ought to 
try the same thing with drugs.
    But, again, I want to thank your entire management team. I 
want to thank you, Mr. Secretary, for coming here, and for all 
of your efforts. This is not an easy job. This is an enormous 
challenge, and you are working hard to try and keep this Nation 
safe and secure. So, thank you for your efforts.
    With that, the hearing record will remain open for 15 days, 
until March 23 at 5 p.m. for the submission of statements and 
questions for the record.
    This hearing is adjourned.
    Secretary Johnson. Thank you.
    [Whereupon, at 12:07 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


				[all] 

                              
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
